AUDIT OF OFFICE OF JUSTICE PROGRAMS
      GRANTS AWARDED TO THE
MIAMI-DADE, FLORIDA, COUNTY POLICE
            DEPARTMENT


      U.S. Department of Justice
    Office of the Inspector General
             Audit Division

     Audit Report GR-40-12-004
          September 2012
         AUDIT OF OFFICE OF JUSTICE PROGRAMS
               GRANTS AWARDED TO THE
         MIAMI-DADE COUNTY, FLORIDA, POLICE
                     DEPARTMENT


                        EXECUTIVE SUMMARY

      The Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of Edward Byrne Memorial Justice
Assistance Grants (JAG), including a 2009 Recovery Act grant,
awarded by the Bureau of Justice Assistance, to the Miami-Dade Police
Department.

      The purpose of the JAG program is to allow local
governments to support a broad range of activities to prevent and
control crime based on their local needs and conditions. Grant funds
may be used for law enforcement, prosecution and courts, crime
prevention and education, corrections, drug treatment, planning,
evaluating, and implementing technology improvement programs, and
crime victim and witness programs. As shown in Exhibit I, since 2007
the Miami-Dade Police Department was awarded over $8 million under
the JAG program.

               Exhibit I: Grants Awarded to
             the Miami-Dade Police Department
      Award         Award          Award                  Award
      Number      Start Date      End Date                Amount
 2007-DJ-BX-0683          10/01/2006       09/30/2010       $983,063
 2008-DJ-BX-0570          10/01/2007       09/30/2011       $290,749
 2009-DJ-BX-1327          10/01/2008       09/30/2012       $922,029
 2009-SB-B9-2979          03/01/2009       02/28/2013     $3,794,013
 2010-DJ-BX-0167          10/01/2009       09/30/2013       $847,976
 2011-DJ-BX-2328          10/01/2010       09/30/2014       $673,213
 2012-DJ-BX-0047          10/01/2011       09/30/2015       $529,706
                                                 Total   $8,040,749
Source: Office of Justice Programs

      We selected the 2007 through 2010 JAG awards as part of our
audit scope based on the amount of grant activity. Because of the
limited amount of grant activity for the 2011 and 2012 JAG awards, we
did not include those grants as part of our audit scope.

                                       i
Recovery Act

       In February 2009, Congress passed the American Recovery and
Reinvestment Act (Recovery Act) to help create jobs, stimulate the
economy and investment in long-term growth, and foster
accountability and transparency in government spending. The
Recovery Act provided $787 billion for tax cuts, education, health care,
entitlement programs, contracts, grants, and loans. Recipients of
Recovery Act funds are required to report quarterly to
FederalReporting.gov on how they spent Recovery Act funds and the
number of jobs created or saved. The Department of Justice received
nearly $4 billion in Recovery Act funds and made almost $2 billion of
that funding available through the JAG Program. The Miami-Dade
Police Department received about $3.8 million under Grant Number
2009-SB-B9-2979 as part of the Recovery Act.

Audit Results

      The purpose of the audit was to determine whether the
Miami-Dade Police Department used grant funds for costs that were
allowable, supported, and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the grants;
whether the city met or was on track to meet the goals and objectives
outlined in the grant programs and applications; and submitted timely
and accurate Recovery Act spending and job data to
FederalReporting.gov.

      The objective of the audit were to determine whether the
Miami-Dade Police Department complied with essential grant
conditions pertaining to: (1) internal controls; (2) grant drawdowns;
(3) grant expenditures; (4) budget management and control;
(5) matching costs; (6) property management; (7) financial, progress,
and Recovery Act reports; (8) grant goals and accomplishments;
(9) monitoring contractors; and (10) monitoring subrecipients.

      We found the Miami-Dade Police Department generally complied
with requirements pertaining to internal control; grant drawdowns;
grant expenditures; budget management and control; and financial,
progress, and Recovery Act reports. However, we found weaknesses
in the areas of accountable property and grant goals and
accomplishments. Specifically, we found the Miami-Dade Police
Department:



                                   ii
  •   incorrectly recorded seven accountable property items in the
      county’s inventory system; and

  •   did not establish baseline data to measure program performance
      and accomplishments for effectiveness and efficiency.

      Based on our audit results we make two recommendations to
improve the management of Department of Justice grants. These are
discussed in detail in the Findings and Recommendations section of the
report. Our audit objectives, scope, and methodology appear in the
Appendix.




                                  iii
                               TABLE OF CONTENTS


INTRODUCTION ........................................................................ 1
     Background .......................................................................... 2
     Audit Approach ..................................................................... 3
FINDINGS AND RECOMMENDATIONS........................................ 5
     Internal Control Environment ................................................. 5
          Financial Management System .......................................... 5
          Recovery Act Planning ..................................................... 5
          Single Audit.................................................................... 6
     Drawdowns .......................................................................... 6
     Grant Expenditures ............................................................... 7
     Property Management ........................................................... 8
     Grant Reports....................................................................... 9
          Federal Financial Reports ................................................10
          Progress Reports ...........................................................11
          Quarterly Recovery Act Reports ......................................12
     Grant Goals and Accomplishments .........................................12
     Monitoring Subrecipients.......................................................14
     Conclusion ..........................................................................15
Recommendations .................................................................. 15


APPENDIX 1 – OBJECTIVES, SCOPE, AND METHODOLOGY ...... 16

APPENDIX 2 – OJP'S RESPONSE TO THE DRAFT
             AUDIT REPORT ................................................ 18

APPENDIX 3 – THE MIAMI-DADE POLICE DEPARTMENT’S
             RESPONSE TO THE DRAFT AUDIT REPORT ....... 20

APPENDIX 4 – OFFICE OF THE INSPECTOR GENERAL ANALYSIS
             AND SUMMARY OF ACTIONS NECESSARY TO
             CLOSE THE AUDIT REPORT ............................. 22
                            INTRODUCTION

      The Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of Edward Byrne Memorial Justice
Assistance Grants (JAG), including a 2009 Recovery Act grant, awarded by
the Bureau of Justice Assistance, to the Miami-Dade Police Department
(Police Department). The purpose of the JAG program is to allow local
governments to support a broad range of activities to prevent and control
crime based on their local needs and conditions.

      The JAG program is the primary source of federal criminal justice
funding for state and local jurisdictions. The JAG program allows states,
tribes, and local governments to support a broad range of activities to
prevent and control crime based on their own local needs and conditions.
Grant funds may be used for:

   •   law enforcement programs,

   •   prosecution and court programs,

   •   crime prevention and education,

   •   corrections and community corrections programs,

   •   drug treatment programs,

   •   technology improvement programs, and

   •   crime victim and witness programs.

       In February 2009, Congress passed the American Recovery and
Reinvestment Act (Recovery Act) to help create jobs, stimulate the economy
and investment in long-term growth, and foster accountability and
transparency in government spending. The Recovery Act provided $787
billion for tax cuts, education, health care, entitlement programs, contracts,
grants, and loans. Recipients of Recovery Act funds are required to report
quarterly to FederalReporting.gov on how they spent Recovery Act funds and
the number of jobs created or saved. The Department of Justice received
nearly $4 billion in Recovery Act funds and made almost $2 billion of that
funding available through the JAG Program.

     As shown in Exhibit 1, since 2007, the Miami-Dade Police Department
was awarded over $8 million to implement these activities.


                                      1
                        Exhibit 1: Grants Awarded to
                     the Miami-Dade Police Department
      Award                Award         Award         Award
      Number             Start Date     End Date      Amount
 2007-DJ-BX-0683          10/01/2006       09/30/2010         $983,063
 2008-DJ-BX-0570          10/01/2007       09/30/2011         $290,749
 2009-DJ-BX-1327          10/01/2008       09/30/2012         $922,029
 2009-SB-B9-2979          03/01/2009       02/28/2013       $3,794,013
 2010-DJ-BX-0167          10/01/2009       09/30/2013         $847,976
 2011-DJ-BX-2328          10/01/2010       09/30/2014         $673,213
 2012-DJ-BX-0047          10/01/2011       09/30/2015         $529,706
                                                 Total     $8,040,749
Source: Office of Justice Programs

      We selected the 2007 through 2010 JAG awards as part of our audit
scope based on the amount of grant activity. Because of the limited amount
of grant activity for the 2011 and 2012 JAG awards, we did not include those
grants as part of our audit scope.

Background

      Miami-Dade County is located along the southeast shoreline of the
Florida peninsula. The county serves a total population of more than
2.5 million people and covers an area over 2,000 square miles. Miami-Dade
County provides a full range of services, including, police and fire protection,
correctional facilities, health services, mass transportation, sanitation, water
and sewer services, parks and recreation, and the operation of an airport
system.

      The Police Department planned to use its JAG funds to enhance law
enforcement electronic communication at the patrol level, develop initiatives
to combat the increase in violent crimes, and purchase mission-critical
technology and equipment. The Police Department also planned to use
Recovery Act funds to support a criminal justice system project that involves
technological and capacity improvements for the Police Department and the
Miami-Dade Corrections and Rehabilitation Department.

     A memorandum of understanding was established between the Police
Department and the Corrections and Rehabilitation Department to define
each of their roles and responsibilities under the Recovery Act grant award.
The Police Department is the primary organizational unit and has the
responsibility to ensure compliance with the grant requirements. The
Corrections and Rehabilitation Department is the secondary unit and is

                                       2
responsible for providing all fiscal and operational reports to the Police
Department. The Police Department planned to use approximately
$2.4 million to automate the completion and processing of offense incident
reports. The Corrections and Rehabilitation Department planned to use
approximately $1.4 million to improve the booking system, automate the
employee scheduling system, and hire 35 additional corrections officers.

Audit Approach

      The purpose of this audit was to determine whether the
Miami-Dade Police Department used grant funds for costs that were
allowable, supported, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the grants; whether the Police
Department met or was on track to meet the goals and objectives outlined in
the grant programs and applications; and submitted timely and accurate
Recovery Act spending and job data to FederalReporting.gov.

       The objectives of the audit were to determine whether the Miami-Dade
Police Department complied with essential grant conditions pertaining to:
(1) internal controls; (2) grant drawdowns; (3) grant expenditures;
(4) budget management and control; (5) matching costs; (6) property
management; (7) financial, progress, and Recovery Act reports; (8) grant
goals and accomplishments; (9) monitoring contractors; and (10) monitoring
subrecipients.

       We tested compliance with what we consider to be the most important
conditions of the grant awards. Unless otherwise stated in our report, the
criteria we audit against are contained in the grant award documents, Office
of Justice Programs Financial Guide, Code of Federal Regulations, Office of
Management and Budget, and the Recovery Act. We tested the Miami-Dade
Police Department’s:

  •   internal controls to identify plans, policies, methods, and procedures
      designed to ensure the police department and the grant programs
      met fiscal and programmatic requirements and the goals and
      objectives of the grants;

  •   grant drawdowns to determine whether grant drawdowns were
      adequately supported and if the police department managed grant
      receipts in accordance with federal requirements;

  •   grant expenditures to determine the accuracy and allowability of
      costs charged to the grant;


                                     3
  •   budget management and control to identify any budget deviations
      between the amounts budgeted and the actual costs for each cost
      category;

  •   matching costs to determine if the police department provided the
      required matching share of grant costs;

  •   property management to determine if property items acquired with
      grant funds are tracked in a system of property records, adequately
      protected from loss, and used for grant purposes;

  •   financial and progress reports to determine if those reports were
      submitted timely and accurately reflect grant activity;

  •   Recovery Act reporting to determine if the reports were submitted
      timely and accurately reflected spending and job data to
      FederalReporting.gov;

  •   grant goals and accomplishments to determine if the police
      department met or was on track to meet the goals and objectives
      outlined in the grant programs and applications;

  •   monitoring contractors to determine if the police department took
      appropriate steps to ensure contractors complied with applicable grant
      requirements; and

  •   monitoring subrecipients to determine whether the police
      department took appropriate steps to ensure that subrecipients met
      the fiscal and programmatic requirements of the grants.

       In conducting our audit, we performed testing in the areas of
drawdowns, grant expenditures, matching costs, property management, and
grant goals and accomplishments. In addition, we reviewed the internal
controls for the financial management system; the timeliness and accuracy
of financial, progress, and Recovery Act reports; evaluated progress toward
grant goals and accomplishments; and the monitoring of subrecipients.




                                     4
               FINDINGS AND RECOMMENDATIONS

      Our audit determined that the Miami-Dade Police Department:
      (1) recorded grant-funded accountable property inaccurately;
      and (2) did not have a method for establishing performance
      baseline data to properly measure program performance and
      accomplishments for effectiveness and efficiency.

Internal Control Environment

      According to the Financial Guide, the grantee is responsible for
establishing and maintaining an adequate system of accounting and internal
controls for itself and for ensuring that an adequate system exists for its
subrecipients. We reviewed the Police Department’s financial management
systems, policies and procedures, and Single Audit report to assess the risk
of non-compliance with laws, regulations, guidelines, and terms and
conditions of the grants. We also interviewed officials responsible for fixed
assets, purchasing, and accounts payable, and we observed accounting and
grant management activities to further assess risk.

Financial Management System

      The Police Department used a county-wide financial system that
contained all accounting, budgeting, purchasing, general ledger, payroll and
fixed asset transactions. Based on our review and testing, the financial
system appeared to have adequate systems of internal controls to ensure
compliance with applicable grant requirements and provided for adequate
segregation of duties and separate accounting codes for each grant
reviewed.

Recovery Act Planning

      The Police Department implemented procedures and conducted
meetings with responsible participants within Miami-Dade County in
preparation for receiving the Recovery Act grant. The Police Department
and Corrections and Rehabilitation Department also received procedures for
programmatic reporting and accounting support documentation.
Miami-Dade county officials conducted several meetings to review the
Recovery Act grant requirements and the responsibilities of each
organization to meet those requirements. The Police Department provided
technical assistance and guidance to the Corrections and Rehabilitation
Department regarding the requirements of the Recovery Act grant and
established processes to help ensure grant compliance. A memorandum of


                                      5
understanding was established with the Police Department and the
Corrections and Rehabilitation Department in an effort to ensure all
grant-related functions were carried out and Recovery Act grant
requirements and goals were met.

Single Audit

       According to Office of Management and Budget Circular A-133,
Miami-Dade County is required to perform a Single Audit annually. The
Single Audit report is due no later than 9 months after the end of the fiscal
year. 1 Miami-Dade County 2010 Single Audit was issued on April 29, 2011,
and complied with the Single Audit reporting requirement. The report
identified a deficiency in the area of capital assets. The county recorded
purchased items and corrections to the capital asset account manually,
resulting in errors in the recorded balance at the government-wide level.
Miami-Dade County agreed with the Single Audit recommendation and
planned to review the process. Miami-Dade County officials also told us that
the process will remain mostly manual until a new integrated financial
system is implemented county-wide. According to a Police Department
official, the county did not have a plan to implement a new financial system
in the near future because of financial constraints.

       Because of the Single Audit finding, we tested 100 percent of grant
expenditures and increased the sample selection for grant-funded property
to determine whether proper controls are in place for the management of
grant funds. During the audit, we found seven errors in the recording of
capital assets purchased with grant funds. The details of our assessment
are discussed in the Grant Expenditures and Property Management sections
of this report.

Drawdowns

     The Financial Guide generally requires that recipients time their
drawdown requests to ensure that federal cash-on-hand is the minimum
needed for disbursements to be made immediately or within 10 days;
however, for JAG awards, recipients may draw down any or all grant funds in
advance of grant costs.

      We audited five federal grants awarded under the JAG Program. One
of the grants was awarded under the Recovery Act. For each of these

     1
         Miami-Dade County’s fiscal year is October 1 through September 30.



                                           6
grants, the Police Department requested drawdowns as reimbursements of
expenditures. The Police Department based its drawdowns on actual
expenditures recorded in the accounting records. We compared each
drawdown to the Police Department’s accounting records and found that
drawdowns generally matched grant expenditures. We confirmed that the
drawdowns were deposited electronically into a bank account.

      During our testing of drawdowns, we noted the Police Department did
not drawdown all the grant funds awarded under Grant Number
2007-DJ-BX-0683. The Police Department drew down $981,162 of the
$983,063 awarded with $1,901 remaining for de-obligation. OJP deobligated
the remaining balance on January 13, 2011.

       At the time of our audit, the other four grants remained open with
grant funds available for drawdown. We discussed with Police Department
officials their plans to spend the remaining funds under each grant program.
The officials told us that each grant was progressing well and assured us
that all funds would be expended prior to the respective grant period end
dates. The officials told us Grant Number 2008-DJ-BX-0570 was complete
and the remaining $363 would be deobligated.

Grant Expenditures

       According to the Financial Guide allowable costs are those costs
identified in Office of Management and Budget circulars and the grant
program’s authorizing legislation. In addition, costs must be reasonable and
permissible under the specific guidance of the grants.

     As shown in Exhibit 2, we tested 113 transactions totaling $1,551,805,
which is 100 percent of the direct costs charged to the grants we audited.




                                     7
                     Exhibit 2: Grant Expenditure Testing
       Award               Funds       Transaction Expenditures                     Percent
      Number             Expended        Tested         Tested                      Tested
 2007-DJ-BX-0683              $963,323              42                $963,323        100%
 2008-DJ-BX-0570              $111,344               8                $111,344        100%
 2009-DJ-BX-1327              $312,442              31                $312,442        100%
 2010-DJ-BX-0167                    $0              $0                      $0         0% 2
 2009-SB-B9-2979              $164,696              32                $164,696        100%
              Totals      $1,551,805              113            $1,551,805          100%
Source: Miami-Dade Police Department accounting records

       We found these expenditures were properly authorized, correctly
classified in the accounting records, supported by appropriate
documentation, and properly charged to the grants.

Property Management

       According to the Financial Guide, grant recipients must be prudent in
the acquisition and management of property items bought with federal
funds. Property acquired with federal funds should be used for criminal
justice purposes, adequately protected from loss, and the property records
should indicate that the property was purchased with federal funds.

       We determined that Miami-Dade County’s property records include
items which exceed a cost of $1,000 and a useful life that is 1-year or
greater. Miami-Dade County’s automated system of property records
included information about the source of the funds used to acquire the
property. The Miami-Dade Police Department provided us a list of 151
property items, valued at $960,035, that were purchased with Department
of Justice funds. From that list, based on the dollar value of each item and
the risk of potential loss, we selected a judgmental sample of 60 items
valued at $845,046 for testing. We verified whether the Police Department
properly accounted for those items in the inventory system and whether the
items were being used for the purposes stated in the grant applications.

      We found seven recording errors between the inventory system and
the actual property purchased with grant funds. There were five errors in
the recording of the serial numbers, one item was recorded without a serial
number, and the final item was not recorded in the inventory system. Police
Department officials corrected these errors after we identified them. The

       2
          At the time of our testing, the Miami-Dade Police Department had not expended
funds for Grant Number 2010-DJ-BX-0167.


                                             8
errors we identified are consistent with the problem reported in the 2010
Single Audit report regarding the process of manually recording additions
and corrections in the accountable property system. Because of these
errors, the financial statements may not accurately reflect the accountable
property’s inventory value. In addition, there is a risk of loss to fraud or
theft because the inventory system can be adjusted manually. The County’s
management concurred with the Single Audit recommendation to enhance
the process of accumulating and recording accountable property to report
asset additions, deletions, and transfers in a more timely and accurate
manner.

      We recommend the Office of Justice Programs ensure the Police
Department enhances the process to properly track and record property
items purchased with federal funds. In addition, the Police Department
Grant Manager should review the accountable property each year and certify
that the assets purchased with federal funds were properly and accurately
recorded. We believe Miami-Dade County’s inventory recording system
could be improved to prevent missing and incorrect information for property
purchased with grant funds.

Grant Reports

      Grantees are required to submit timely and accurate financial reports
and grant progress reports to the Office of Justice Program. Prior to
October 2009, the Police Department was required to submit quarterly
Financial Status Reports (FSR) within 45 days after the end of each quarterly
reporting period. Beginning October 1, 2009, the Federal Financial Report
(FFR) replaced the FSR. FFRs are due 30 days after the end of each
calendar quarter. A final financial report is due 90 days after the end of the
grant period.

      Grantees are required to submit annual progress reports regarding
grant performance for block and formula awards. Annual progress reports
must be submitted to the Bureau of Justice Assistance no later than
December 31. The final progress report is due 90 days after the expiration
of the grant.

      For Recovery Act grants, grant recipients are required to report
quarterly to FederalReporting.gov their grant expenditures and the number
of jobs created or saved.




                                      9
Federal Financial Reports

      We reviewed the FFRs for the last eight quarterly reporting periods for
each of the five grants to determine whether the reports were timely and the
reported expenditures agreed with the Police Department’s accounting
records.

      As shown in Exhibit 3, the Police Department submitted 2 of the 36
financial reports 153 and 62 days late for Grant Number 2010-DJ-BX-0167.
According to a Police Department official, the late reports resulted from an
administrative oversight. The Police Department overlooked the
requirement for submitting reports when there was no activity for the grant.
Once the late reports were submitted, all subsequent financial reports were
timely. We consider the late reports a minor exception and make no
recommendation regarding the timeliness of financial reports.

          Exhibit 3: Federal Financial Reports Submitted Late
      Award            Report For Quarter        Report Due        Date       Days
      Number                 Ended                  Date         Submitted    Late
 2010-DJ-BX-0167            03/31/2010             04/30/2010    09/30/2010    153
 2010-DJ-BX-0167            06/30/2010             07/30/2010    09/30/2010     62
Source: Office of Justice Programs and Miami-Dade Police Department

       We also tested the accuracy of the financial reports by comparing the
reported expenditures to the Police Department’s accounting records. From
the five grants we tested, we found a total of 6 of 36 quarterly financial
reports that did not match the accounting records. We did not consider four
of the six financial reports as reportable items; however the other two were
overstated by the amounts shown in Exhibit 4.

               Exhibit 4: Federal Financial Report Variances
                       Report for                      Accounting
     Award              Quarter        Reported         Records
     Number              Ended         Amount           Amount          Variance
 2007-DJ-BX-0683       12/31/2009       $888,824             $878,874         $9,950
 2007-DJ-BX-0683       03/31/2010       $888,824             $886,394         $2,430
Source: Office of Justice Programs and Miami-Dade Police Department

      According to Police Department officials, the variances occurred
because of miscalculations on the spreadsheets used by the Police
Department’s fiscal and administrative staff when recording transactions for
these periods. During the audit, officials told us the spreadsheets were
corrected to accurately reflect the financial activity in the grant award. For
the other grants reviewed, we found them to be accurately reported. The

                                          10
miscalculations were minor errors that the Police Department corrected
during the audit. Consequently, we make no recommendation regarding the
financial reports.

Progress Reports

      According to the Financial Guide, recipients must submit progress
reports annually for block/formula awards. These reports should describe
the status of the project and include a comparison of actual
accomplishments to the objectives or other pertinent information. Also,
according to 28 Code of Federal Regulations § 66.40, progress reports will
contain for each grant, brief information on:

   •   a comparison of actual accomplishments to the objectives established
       for the period;

   •   the reasons for slippage if established objectives were not met; and

   •   additional pertinent information including, when appropriate, analysis
       and explanation of cost overruns or high unit costs.

     We tested whether the Police Department submitted timely, complete,
and accurate progress reports.

      We evaluated the timeliness of progress reports for the last 2-years for
each of the 2007 through 2010 JAG awards, including the Recovery Act
grant of 2009. We found that all of the tested progress reports were filed
timely.

      We also tested the completeness and accuracy of progress reports by
comparing accomplishments described in the most recent report to the grant
application and supporting documentation maintained by the grantee. For
each of the grants, the Police Department reported equipment purchases
and software installations as described in the grant applications. We
physically verified the grant-funded equipment items purchased and
considered the progress reports accurate.

      In summary, the progress reports we reviewed were submitted timely
and were accurate. However, as discussed in the Program Performance and
Accomplishments section of the report, some progress reports did not
contain sufficient detail for us to determine whether the Police Department
met, or was making progress at meeting, the goals and objectives of the
grants.


                                      11
Quarterly Recovery Act Reports

      The Recovery Act, Section 1512, requires recipients of Recovery Act
funds to report their expenditures and jobs created or saved to
FederalReporting.gov. The initial report was due October 10, 2009, with
quarterly reports due 10 days after the close of each quarter thereafter.

      Our review of Miami-Dade Police Department’s Recovery Act reporting
found that the reports required at the time of our audit work were submitted
timely. The reports we reviewed were accurate but did not fully describe
grant activities in accordance with requirements.

Grant Goals and Accomplishments

       Grant performance and accomplishments should be based on
measurable outcomes rather than on counting activities. The Government
Performance and Result Act provide a framework for setting goals,
measuring progress, and using data to improve performance. To measure
progress, grantees should establish a baseline measure and a system for
collecting and analyzing data needed to measure progress.

       To evaluate program performance and accomplishments we reviewed
the grant applications, the most recent grant progress reports, and
supporting documentation maintained by the Police Department. We found
that the Police Department tracked program performance and recorded
accomplishment data related to the grants’ goals and objectives for the 2007
through 2010 JAG awards, including the 2009 Recovery Act grant. However,
the Police Department did not establish baseline measurements to evaluate
whether grant funds provided improved program effectiveness and
efficiencies. According to Police Department officials, procedures for
reporting performance data for grants’ goals and progress measurements
were established prior to the grant award and baseline measurements were
not used to compare with the performance data. We determined the Police
Department tracked the amount of grant funds spent and the equipment
acquired for each respective grant program. The results of our evaluation
for each grant are explained below.

      Grant Number 2007-DJ-BX-0683 – The objective of the grant was to
enhance law enforcement electronic communication software at the patrol
level. To accomplish this objective, the Police Department acquired
equipment to establish an enterprise messaging solution. With the
completion of this system, the Police Department sent out electronic
messaging in a timely manner to a global address book for different
governmental agencies and media sources. As their accomplishment, the

                                    12
Police Department reported using the remaining grant funds to purchase the
final components of information technology equipment and to pay the salary
of an account clerk.

      Grant Number 2008-DJ-BX-0570 – The objective of the grant was to
support the Police Department’s robbery intervention detail. The grant funds
were used to pay for equipment and training needed for the robbery
intervention detail. The Police Department reported the procurement of 20
finger scanners and upgrades to the cellular tracking system. The Police
Department reported that these purchases allowed detectives quick access
to identification and criminal background information for potentially violent
subjects. The Police Department anticipated that the purchased equipment
would allow detectives to increase their patrol time and improve
investigations of violent criminal offenders.

       Grant Number 2009-DJ-BX-1327 – The objective of the grant was to
purchase officer safety equipment to protect them when confronting subjects
in dangerous operations and detectives when exposed to hazardous
substances. The Police Department reported the purchase of a forklift,
tactical vests, shelters, camera kits, and walking wheel tape measures.
Officials told us these items are critical equipment for gathering evidence
and precisely documenting and processing crime scenes and assisting
detectives in investigations.

       Grant Number 2010-JD-BX-0167 – The objective of the grant was to
purchase technology and equipment including, fingerprint scanners, network
infrastructure and support, computers, and laptop computers. The Police
Department reported purchasing fingerprint scanners. The scanners
provided for the electronic capture of fingerprints and submitting the prints
to an automated information system for searches and processing. This grant
was ongoing and additional equipment purchases were planned during the
grant period.

      Grant Number 2009-SB-B9-2979 – The objective of the grant was to
support a project that involved technological and capacity improvements for
the Police Department and the Corrections and Rehabilitation Departments.
Miami-Dade County reported hiring five corrections officers and four system
analysts, and it purchased property capture stations. 3 This grant was
ongoing, and the Corrections and Rehabilitation Department planned to hire



      3
          Property capture stations are equipment used to shrink-wrap and store inmates’
personal belongings while the inmates are incarcerated at the county jail.


                                          13
30 additional corrections officers and complete the staff scheduling system.
The Police Department planned to automate their offense incident reports.

      After reviewing these performance reports and the accomplishments
recorded by the Police Department, we found no quantitative indication of
improved effectiveness or efficiencies as a result of implementing the grant
programs. Officials reported equipment purchases and systems
implementation as accomplishments. The Police Department did not
establish baseline data to measure program performance and
accomplishments for the grant awards. The officials told us that they were
not aware of the requirement to establish and provide baseline statistics for
reporting performance during the grant period. Absent such data, the Police
Department could not demonstrate and we cannot verify that grant funds
improved the programs identified in the grant applications.

Monitoring Subrecipients

       According to the Financial Guide, primary recipients of grant funds are
responsible for monitoring subrecipients to ensure the subrecipients fulfill
the fiscal and programmatic requirements of the grants. The primary
recipient is responsible for all aspects of the program including proper
accounting and financial recordkeeping by the subrecipient, including the
receipt and expenditure of funds and cash management.

       According to the memorandum of understanding, the Police
Department was the primary recipient and fiscal agent for the Recovery Act
grant, and the Corrections and Rehabilitation Department was a subrecipient
of the grant program. The Police Department was responsible for monitoring
the Corrections and Rehabilitation Department to ensure compliance with
fiscal and programmatic requirements for the Recovery Act.

      We found the Police Department maintained documented procedures
for monitoring the Corrections and Rehabilitation Department to ensure it
met the programmatic requirements of the grants. According to a Police
Department official, the monitoring of the subrecipient was limited to the
expenditure of grant funds and the submission of local reports for the
number of new hires and trainees. Officials told us they relied on the reports
prepared by the Corrections and Rehabilitation Department for compliance
with programmatic requirements. The officials told us they believed the
memorandum of understanding satisfied the monitoring requirement and
submission of the periodic grant progress and financial reports. The
monitoring practices were informal and performed as established in the
memorandum of understanding between the Police Department and
Corrections and Rehabilitation. We found that the Police Department’s

                                      14
monitoring consisted of a visit to the jail to verify and review information for
the four hired officers and reviewing performance data and financial
documents prepared by the Corrections and Rehabilitation Department. The
Police Department also provided the Corrections and Rehabilitation
Department with instruction and guidance to address grant requirements.
We considered the monitoring adequate in meeting grant requirements.

Conclusion

      The Miami-Dade Police Department generally complied with the grant
requirements pertaining to internal controls, grant drawdowns, grant
expenditures, budget management and control, and grant reporting.
However, we found weaknesses in the management of accountable property
and program performance and accomplishments.

Specifically, we found that the Police Department:

   1. incorrectly recorded seven accountable property items in the county’s
      inventory system, and

   2. did not establish baseline data to measure program performance and
      accomplishments for effectiveness and efficiency.

     During the audit, police department officials corrected the accountable
property errors.

     Based on the weaknesses identified, we make the following
recommendations.

Recommendations

We recommend that the Office of Justice Programs:

   1. Ensure the Miami-Dade Police Department enhances the process for
      recording and tracking all grant-funded property to ensure that assets
      are identifiable and accurately recorded. The Police Department Grant
      Manager should review the accountable property each year and certify
      that the assets purchased with federal funds were properly and
      accurately recorded.

   2. Ensure the Miami-Dade Police Department provides baseline data for
      the Department of Justice grant-funded programs to ensure proper
      measurement of program performance and accomplishments.


                                       15
                                                             APPENDIX 1

           OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether the Miami-Dade
Police Department used grant funds for costs that were allowable,
supported, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the grants and whether the Police
Department met or was on track to meet the goals and objectives
outlined in the grant programs and applications; and submitted timely and
accurate Recovery Act spending and job data to FederalReporting.gov.

      The objectives of the audit were to determine whether the
Miami-Dade Police Department complied with essential grant conditions
pertaining to: (1) internal controls; (2) grant drawdowns; (3) grant
expenditures; (4) budget management and control; (5) matching costs;
(6) property management; (7) financial, progress, and Recovery Act
reports; (8) grant goals and accomplishments; (9) monitoring
contractors; and (10) monitoring subrecipients.

      We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

      Our audit scope covered the 2009 JAG Recovery Act and four other
JAG awards that had sufficient activity to test the grantee’s management
of grants and subrecipients. We tested compliance with what we consider
to be the most important conditions of the grants. Unless otherwise
stated in our report, the criteria we audit against are contained in the
Office of Justice Programs Financial Guide, Office of Management and
Budget circulars, and specific program guidance.

      In conducting our audit, we performed sample testing of drawdowns,
grant expenditures, financial reports, progress reports, property
management, and grant goals and accomplishments. In this effort, we
employed a judgmental sampling design to obtain broad exposure to
numerous facets of the grants reviewed, such as dollar amounts or




                                     16
expenditure category. We selected judgmental sample sizes for the testing
of each grant. This non-statistical sample design does not allow projection
of the test results to the universe from which the samples were selected.

      In addition, we reviewed the timeliness and accuracy of financial,
progress , and Recovery Act reports, compared performance to grant goals,
and whether the Police Department adequately monitored subrecipients. We
did not assess the reliability of the financial management system as a whole.




                                     17
                                                                                          APPENDIX 2

OJP’S RESPONSE TO THE DRAFT AUDIT REPORT


                                                  U.S. DepSIIrtmeDt of Justice

                                                  Offic~   ofJustice Programs

                                                 OjJice ofAudit, Assessment, and Managemenl


                                                 w ~",,''''', D.C.
                                                  ...                20531



   seP 20 2012


MEMORANDUM TO;               Ferris B. Polk
                             Regional Audil Manager
                             Allanta Regional Audit Office
                             Office o r the Inspecto r General

FROM :
                     & ~,:::~A H~'bo,g6e~:f~
SUBJECT;                     Response to the Drull Audit Report, Audit ofOffice ofJustice
                             p,.ograms G,.ants Awarded 10 the Miami·Iklde Caunty Police
                             Department, Flo,.ida

This memorandum is in response to your conespondcnce, dated August 24, 2012, transmilting
the subject draft audit report for the Miwni· Dade County Police Depanment (MD PD). We
consider the subject report resolved and request written acceptance of this actio n from your
office.

The draft audit report contains two recommendations and no questioned costs. The following is
the Office of Justice Programs' (OJ P) analysis of the draft audit report recommendat ions. For
ease of review, the recommendations are restated in bold and are followed by our response.

I. We reco mmend that OJP ensure that the Miami-Dade I'olice Department cnhance~ the
   process for reco rdin g and tracking ali gran t.funded property, to en!ure that asse h are
   identifiab le aDd accurately recorded. The PoUce Department Grant Manager should
   review th e accounta ble property each year and certify that tb e assets purchased with
   Federal funds were properly a nd acc urattly recorded.

   OJP agrees w ith the reeommendation. However, the MD PD provided OJP with a copy of its
   September II _2012 response to the draft aud it report (see Attachment I). In its response, the
   MD PD included evidence to support the implementation of a Grants Inven tory Tracking
   database to specifically record and track all grant·funded property. Additionally, the MDPD
   stated that, going forward, all grant-funded equipment w ill be tagged for identification; and
   all equipment disposals will be reviewed and approved by the MDPD Grants Compliance
   Officer, through the submission of a Property Action Fonn by the Project Mnnllgcr.




                                                 18

      Further, the MOPO stated that the Grants Compliance Officer will conduct an annual audit of
      all grant-funded equipment, and will submit an Inventory Cenification Memomndum to the
      Director oflhe MOPO each year. Based on OlP's review of the documentation provided by
      the MOPO, we believe these actions are ~ufficicnt to address the recommendation.
      Therefore, OJP respectfully requests closure ofthis recommendation.

2. We recommend that O.W ensure that tbe M iami-Dade Police Department provides
   baseline data for the U.S. Department of Justice grant-funded progra ms, to ensure
   proper measurement of program performance aDd accomplishments.

      OJP agrees with the recommcodation. We will coordinate with the MDPD to obtain a COpy
      of procedures implemented to ellSure that baseline data is provided for U.S. Department of
      Justice grant-funded programs, to ensure proper mea~uretllent of program perfonmmce and
      accomplishments.

We appreciate the opportunity to review and C(lmment on the dra.ft audit report. If you have any
questions or require additional infonnation, plcase contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:      Jeffery A. Haley
         Deputy Director, Audit and Rev iew Division
         Office of Audit, Assessment, and Managcment

         Tracey Trautman
         Acting Deputy Director for Programs
         Bureau of Justice Assistance

         Amanda loCicero
         Budget Analyst
         Bmeau of Justice Assistance

         Stefanic Harris
         Grant Program Specialist
         Bureau of Justice Assistance

         u,uisc Duhamel, Ph.D.
         Acting Assistant Director, Audit Liaison Group
         Internal Review and Evaluation Office
         Justice Management Division

         OJP Executive Secrctariat
         Control Number 20 121423




                                                19

                                                                                           APPENDIX 3

    THE MIAMI-DADE POLICE DEPARTMENT’S
       RESPONSE TO THE DRAFT REPORT




                                         Mia mi-Da d e Police
                                             D epa rtment



w
•
      September 1\,2012
                                               Director's Office

                                                                                         --
                                                                                        ""O_'''-''Y
                                                                                          -~




c     Mr. Ferris B. Polk
•
,
      Regional Audit Manager
      Office oflhe Inspector General
      Atlanta Regional Audit Office
•     U.S. Department of Justice
      15 Spring Street, Suite 1130
      All ants, Georgia 30303

      Dear Mr. Poik:
w
•     The Miami-Dade Police Depanmcnl ( MDPD) is in receipt of your draA audi t report, 10
      the Office of Justice Programs (OJP). relalro 10 an aud it of p illS under the Edward
p     Byrne Memorial Justice Assistance Grant Program, including a Recovery Act grant,
,     awarded by the Bureau of Justice Assistance, to the MOPD. This audit included grant
o     numbers 2007-DJ-BX-0683, 200B-DJ- DX-OS70, 2009·0J·DX-ll27, 2009-S8-89-2979,
t     flrId 2010-0J-8X-OI61.
•
,     The droft audit report contains two recommendations which require a wrillcn response
t     prior \0 the issW'lnce of the final audit report. Oelow III"<: Ihe dellliled I"<:commendations
      along wilh the corresponding responses:

      Hss o mm cn dalion # 1

      Ensure the MDPD enhances the process for record ing IlJld Iracking all grant-funded
w     property 10 ensure that assels are identifiable lind Il~urulely r<,:corded, Thc Police
•     Departmenl Grant Manager should review the accountable property each year lind certify
      Ihlll lhe assets purchased with federal fund s were properly and acx:uralely recorded.
s
•
,
      MDI'D   RHPOnS$


,     MDI'O concurs with the first recommendation. As a result of this audit , the MDPD
•     Gnml$ Compliance Sox:tion has created and mai ntains II Grunts InvenlOry Track ing
      dalabaJc in Microsoft Access (EncIOliUrc 1). 'Ibis is a separa te database, in addition 10
      the Capital Inventory Record, thaI is maintained by Millm i-Dadc County and tnc MDPD
      in ventory officer. A ll equipment, n:prdl ess o f dollar value (capital and nOll-capital)
      invoiced by grant funding. will be entered by the Sec tion's clerk into thi s database. The
      information captured includes grant number, index code. cost per item, serial number.
      Miami-Dade County capital inventory number, ifapplicable. and other pcrtillCnt fields.


                          9105 NW 25 St.... et • Oora', Florida· 33172- 1500
          T.Ie ~.I3OSJ    471_1780 • Fa" J3OS) 471 ·21$3 • Website hllp:lI_w.mdpd.com




                                              20

  Mr. Ferris B. Polk
  September I I, 20 12
  Pa~2

  All grant-funded equipment will be specifically tagged indicating that it is grant funded.
  Fwthennore, all disposals must be reviewed and Bpproved by tile 01lUl1S Compliance
  Officer (GeO) before any disposition of equipment. A Property Action Fonn will be
  completed by the Project Manager and returned to tile GeO for approval (Enclosure 2).
  Additionally, the GeO will conduct an annual audit of grant purchased equipment and
  complete an Inventory Certification Memonmdum addressed to this writer certifying the
  accuracy of the inventory (Enclosure 3).

  Recommendation 112

  Ensure the MDPD provides baseline data for the Department of Justice gmnt·funded
  progrnms 10 ensure proper measurement ofprogmm perfonnancc and accomplishments.



  MDPD concurs with the recommendation !hat we did not establish baseline
  measurements to evaluate whether grant funds provided improved program effectiveness
  and efficiencies.

  MDPD reported fund expenditures, acquired equipment, and other pertinent information
  utilizing the PerfOrmllllCC Measurement Tool as provided by the OlP Bureau of Justice
  Assistan«. To ~ enhanced reporting. MDPD will establish baseline measurements
  for futUR: grant awards \Ioruch will be presented 10 projtct maMgefS during the award
  meeting. This infonnation will be used to compare ""th the actual performance data
  colltcted and incorporated into the quanerly reports.

  Please be assured of our continued cooperation in areas of mutual concern. If you have
  any questions on this maner, please con!acl Sergeant Randy Rossman, of our Fiscal
  Administration Bureau, at (305) 471·2501.

  Sincerely,



. ~
~~~~.Lonus

  Enclosures (3)
  c: 	 Genaro "Chip~ Iglesias 

      Deputy Mayor/Chief ofSlaff 


     Alina T. Hudak
     Deputy Mayor!County Managcr




                                        21

                                                            APPENDIX 4

              OFFICE OF THE INSPECTOR GENERAL
             ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE THE REPORT

       The Office of the Inspector General provided a draft audit report to
the Office of Justice Programs (OJP) and the Miami-Dade Police Department.
OJP’s response is incorporated in Appendix 2 and the police department’s
response is incorporated in Appendix 3.

Recommendation Number:

  1. Closed. OJP concurred with our recommendation to enhance the
     process for recording and tracking all grant-funded property to ensure
     that assets are identifiable and accurately recorded. In its response,
     OJP referred to documentation and descriptions of processes provided
     by the Miami-Dade Police Department to support the implementation
     of a grant inventory database to specifically record and track all
     grant-funded property. OJP believed these actions to be sufficient to
     address the recommendation.

     The Miami-Dade Police Department concurred with our
     recommendation and provided support for the improvements to its
     processes for recording and tracking all grant-funded property.

     This recommendation is closed based on the evidence provided for the
     Miami-Dade Police Department’s implementation of controls over
     recording and tracking all grant-funded property.

  2. Resolved. OJP concurred with our recommendation to provide
     baseline data for the Department of Justice grant-funded programs to
     ensure proper measurement of program performance and
     accomplishments. OJP stated in its response that it will coordinate
     with the Miami-Dade Police Department to obtain a copy of procedures
     implemented to ensure that baseline data is provided for grant-funded
     programs for the proper measurement of program performance and
     accomplishments.




                                    22
The Miami-Dade Police Department concurred with our
recommendation and stated it will establish baseline measurements for
future grant awards, compare actual performance data collected to the
established baseline, and incorporate the results into the quarterly
reports.

This recommendation can be closed when we receive and review
procedures that ensure the Miami-Dade Police Department
implemented processes for providing baseline data for grant-funded
programs for the proper measurement of program performance and
accomplishments.




                              23
